HHS/OIG-Audit--"Pharmacy Health Professions Student Loans Program at the Massachusetts College of Pharmacy, Boston, Massachusetts, (A-05-98-00044)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Pharmacy Health Professions Student Loans Program at the Massachusetts College
of Pharmacy, Boston, Massachusetts, (A-05-98-00044)
November 6, 1998
Complete Text of Report is available in PDF format
(378 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Pharmacy Health
Professions Student Loans (HPSL) Program at the Massachusetts College of Pharmacy
(the College). The HPSL program was implemented through the Public Health Service
Act. The Health Resources and Services Administration (HRSA) has overall management
responsibilities for the program at the Federal level.
We determined that the College was generally in compliance with regulations
concerning the administration of loans. However, our audit revealed that the
College was carrying uncollectible loans in their accounting records.